No. 19-71

Ia the Supreme Court of the United States

FNU Tanzin, ET AL.,
Petitioners,

v.

Muhammad Tanvir, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
FREEDOM FROM RELIGION FOUNDATION AND AMERICAN HUMANIST
ASSOCIATION AS AMICI CURIAE IN SUPPORT OF NEITHER PARTY
contains 6,270 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Patrick C. Elliott

Counsel of Record

Samuel T. Grover

Freedom From Religion Foundation
P.O. Box 750

Madison, WI 53701

(608) 256-8900

pelliott@ffrf.org

Executed on January 18, 2020.
